Report No. DODIG-2012-144         September 28, 2012




       Independent Auditor's Report on the
    Agreed-Upon Procedures for Reviewing the
     FY 2012 Civilian Payroll Withholding Data
           and Enrollment Information
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
CFC                    Combined Federal Campaign
DFAS                   Defense Finance and Accounting Service
DOE                    Department of Energy
EPA                    Environmental Protection Agency
FEGLI                  Federal Employees Group Life Insurance
FERS                   Federal Employees Retirement System
HHS                    Department of Health and Human Services
OCFCO                  Office of Combined Federal Campaign Operations
ODO                    Other Defense Organizations
OPF                    Official Personnel File
OPM                    Office of Personnel Management
PCFO                   Principal Combined Fund Organization
RITS                   Retirement and Insurance Transfer System
VA                     Department of Veterans Affairs
                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIR~INIA 22350-1500




                                                                                 September 28, 2012


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                · FINANCIAL OFFICER, DOD
               UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                  READINESS
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               CHIEF, NATIONAL GUARD BUREAU
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               INSPECTOR GENERAL, DEPARTMENT OF ENERGY
               INSPECTOR GENERAL, DEPARTMENT OF HEALTH
                 AND HUMAN SERVICES
               INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS
               INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
               INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT


SUBJECT: Independent Auditor's Report on the Agreed-Upon Procedures for Reviewing the
         FY 2012 Civilian Payroll Withholding Data.and Enrollment Information
         (Report No. DODIG-2012-144)


We are providing this final report for your information and use.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8938
(DSN 664-8938).


                                       ~ (\ . J~
                                        Richard B. Vasquez, CPA
                                        Acting Assistant Inspector General
                                        Financial Management and Repmiing
                             INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500



                                                               September 28, 2012


The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001

Subject: Independent Auditor’s Report on the Agreed-Upon Procedures for
         Reviewing the FY 2012 Civilian Payroll Withholding Data and
         Enrollment Information (Project No. D2012-D000FP-0103.000)
Dear Mr. McFarland:

We performed the procedures described in the Enclosure, which were agreed to by
the Chief Financial Officer and the Inspector General of the U.S. Office of
Personnel Management (OPM). We performed these procedures solely to assist in
assessing the reasonableness of the employee withholdings and employer
contributions that the Defense Finance and Accounting Service (DFAS) reported
on Standard Form 2812, “Report of Withholdings and Contributions for Health
Benefits, Life Insurance, and Retirement,” for the pay periods ending August 27,
2011; October 22, 2011; and February 25, 2012. We also performed these
procedures to assist in assessing the reasonableness of the amounts reported in the
“Supplemental Semiannual Headcount Report,” as of September 1, 2011 and
March 1, 2012. The reports submitted by DFAS included information for the
following entities listed in Appendix A of the Office of Management and Budget,
Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” as
amended: the Department of Defense (DoD), Department of Energy (DOE),
Department of Health and Human Services (HHS), Department of Veterans
Affairs (VA), and the Environmental Protection Agency (EPA).

Using Audit Command Language software, we randomly selected a sample of
360 employees from the October 22, 2011, pay period from the 11 DFAS payroll
data files (Army, Navy, Air Force, Other Defense Organizations [ODO], Overseas
Army/DoD, Overseas DoD, Shipyard DoD, DOE, HHS, VA, and EPA).
We compared the sample of 360 employees’ pay and withholdings and agency
contributions in the Defense Civilian Pay System to the documentary support
in the Official Personnel Files (OPFs). Of the 360 OPFs, 180 represented DoD
employees, 45 represented DOE employees, 45 represented HHS employees,
45 represented VA employees, and 45 represented EPA employees.

Auditors from the DOE Inspector General performed the agreed-upon procedures
that involved reviewing DOE OPFs. Auditors from the HHS Inspector General
performed the agreed-upon procedures that involved reviewing HHS OPFs. We
reviewed their working papers and determined that we can rely on their work.

We perfmmed the agreed-upon procedures in accordance with generally accepted
govemment auditing standards, which incorporate financial audit and attestation
standards established by the American Institute of Certified Public Accountants.
The sufficiency ofthese procedures is solely the responsibility of the OPM Chief
Financial Officer and the OPM Inspector General. Consequently, we make no
representation regarding the sufficiency of the procedures either for the purpose
for which this report has been requested or for any other purpose.

We were not engaged to express an opinion on whether the Health Benefits, Life
Insurance, and Retirement contributions and withholdings and the emollment
information submitted by DFAS to OPM were reasonable and accurate.
Accordingly, we did not conduct an examination, nor do we express such an
opinion. Had we perfmmed additional procedures, other matters might have come
to our attention that we would have reported to you. We provided a discussion
draft of this report to the entities listed in the transmittal memorandum.

This repm1 is intended solely for the information and use of the OPM Chief
Financial Officer and OPM Inspector General and is not intended to be used by
those who have not agreed to the procedures or have not taken responsibility for
the sufficiency of the procedures for their purposes. However, the report is a
matter of public record, and its distribution is not limited; thus, we will post the
repm1 on our Web site and provide copies upon request.

                                      Sincerely,



                                      Richard B. Vasquez, CPA
                                      Acting Assistantlnspector General
                                      Financial Management and Reporting

Enclosure:
As stated
Enclosure: Agreed-Upon Procedures
Performed and Results
This section contains the OPM Agreed-Upon Procedures and the results of completing
those procedures.

Overall Procedure
For employee benefit withholding and contributions, obtain the Agency Payroll
Provider’s September 2011 and March 2012 Semiannual Headcount Report submitted to
OPM and a summary of Retirement and Insurance Transfer System (RITS) submissions
for September 2011 and the current fiscal year. For each program (retirement, health,
and life), select a total of three RITS submissions for September 2011 and the current
fiscal year; two will coincide with the September 2011 and March 2012 Semiannual
Headcount Report. Obtain payroll information for the periods covered by the RITS
submissions selected.

For the Combined Federal Campaign (CFC) Agreed-Upon Procedures, effective for
FY 2012, obtain the following documentation for the Federal agencies serviced by
the Agency Payroll Provider:

a) A list of all field offices/duty stations in existence during the fall 2011 CFC
solicitation period (September 1, 2011 through December 15, 2011) for each Federal
agency serviced. The list must include either the OPM Office Duty Station Code or the
county, city, state and zip code for the field office.

b) A list of all local CFC campaigns and the areas they cover. This list should be
obtained directly from the OPM Office of CFC Operations (OCFCO) by sending an
e-mail request to cfc@opm.gov. The subject line of the e-mail should be “Payroll
Office AUPs–2011 CFC Campaign Location List Request.”

c) A list of accounting codes used by the Agency Payroll Provider to identify each local
CFC campaign. The list should include the accounting code, name of campaign, name
of Principal Combined Fund Organization (PCFO) for that campaign, and address of
PCFO.

d) A report of all employees with CFC deductions from the RITS submission selected to
coincide with the March 2012 Semiannual Headcount. The report must include each
employee’s official duty station location and the agency payroll provider’s accounting
code identifying the campaign to which each employee’s funds are being distributed.




                                                                               Enclosure
                                                                             Page 1 of 13
Procedure 1.
Compare RITS submission data with payroll information by performing the following
procedures (Note: For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one agency.):

Procedure 1.a.
Recalculate the mathematical accuracy of the payroll information.

Procedure 1.b.
Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.

Procedure 1.c.
Compare the employee withholding information at the aggregate level for Retirement,
Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the
payroll information obtained in step 1.a. to the related amounts shown on the RITS
submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life Insurance
(categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
of the three categories. Obtain from management a management official name,
an explanation, telephone number, and an e-mail address for the differences above the
1-percent threshold.

Results
There were no differences greater than 1 percent for this comparison.

Procedure 2.
(See Procedures 2.a.-j.)

Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three of
the RITS submissions selected above that met all the following criteria:

       •   covered by the Civil Service Retirement System or the Federal Employees
           Retirement System (FERS);
       •   enrolled in the Federal Employees Health Benefit Program;
       •   covered by Basic Life Insurance; and
       •   covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
           optional coverage (Option A, B, or C).

Procedure 2.b
Obtain the following documents, either in electronic or hardcopy format, from the OPF
for each individual selected in step 2.a. Hardcopies can be originals or certified copies.

                                                                                 Enclosure
                                                                               Page 2 of 13
       •   All Notifications of Personnel Actions (SF-50) covering the pay periods in the
           RITS submissions chosen;
       •   The Health Benefits Election Form (SF-2809) covering the pay periods in the
           RITS submissions chosen or, if applicable, obtain a report (via the agency
           personnel office) from the agency’s automated system that allows participants
           to change benefits, (for example, Employee Express), for any Health Benefits
           transactions in that system for the individuals selected in step 2.a. (note: a new
           SF-2809 is needed only if an employee is changing health benefit plans;
           therefore, the form could be many years old); and
           o For Health Benefits, compare date of transaction with date on the certified
               copy of the SF-2809 or the agency’s automated system report obtained
               above to identify whether the health benefit information to be used in the
               step 2.f. covers the pay periods in the RITS submissions chosen.
       •   The Life Insurance Election Form (SF-2817) covering the pay periods in the
           RITS submission chosen (note: a new SF-2817 is needed only if an employee
           is changing life insurance coverage, therefore the form could be many years
           old).

Results
Thirty-one documents were identified as incomplete, late, or missing. We identified two
documents from the Army, one document from the Air Force, ten documents from the
ODOs, two documents from EPA, and three documents from VA that were either
missing, incomplete, or processed late. DOE auditors identified two incomplete or
missing documents, and HHS auditors identified 11 incomplete or missing documents.
The following table identifies the number and type of documents that were incomplete,
late, or missing by organization.

 Table 1. Number and Type of Documents Incomplete or Missing by Organization
                     SF-50          SF-2809                   SF-2817
    Organization     Missing   Incomplete   Missing   Incomplete   Late   Missing   Total
    Army                1                      1                                      2
    Air Force                                                       1                 1
    ODO                                        4                             6       10
    DOE                                                   1                  1        2
    EPA                                        1                             1        2
    HHS                 1          1           1                             8       11
    VA                                         1                             2        3
     Total              2          1           8          1         1       18       31

Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for all payroll
purposes and upon which withholdings and contributions generally are based to the base
salary reflected on the employee’s SF-50. Report any differences resulting from this step
and obtain management’s explanation for the differences.
                                                                                   Enclosure
                                                                                 Page 3 of 13
Results
We identified five differences, and HHS auditors identified one difference for a total of
six differences. We found three differences for Army, one for Navy, and one for the
National Guard Bureau. These differences occurred because the applicable SF-50 was
missing; DFAS had made retroactive pay adjustments to the pay system amounts; or
Human Resources and DFAS management did not provide an adequate explanation.

Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan code
from the employee’s SF-50 to the plan code used in the payroll system. Report any
differences resulting from this step and obtain management’s explanation for the
differences.

Results
We did not find any differences for this comparison.

Procedure 2.e.
For each individual selected in step 2.a., calculate the retirement amount to be withheld
and contributed for the plan code from the employee’s SF-50, by multiplying the base
salary from the employee’s SF-50 by the official withholding and contribution rates
required by law. Compare the calculated amounts to the actual amounts withheld and
contributed for the retirement plan. Report any differences resulting from this step and
obtain management’s explanation for the differences.

Results
We identified nine differences, and HHS auditors identified one difference for a total of
ten differences. We found three differences for Army, one for Navy, one for Air Force,
and four for ODO. These differences occurred because the applicable SF-50 was missing
or Human Resources and DFAS management did not provide an adequate explanation.

Procedure 2.f.
For Health Benefits for each individual selected in step 2.a., compare the employee
withholdings and agency contributions to the official subscription rates issued by OPM
for the plan and option elected by the employee, as documented by a Health Benefits
Election Form (SF-2809) in the employee’s OPF or automated system that allows the
participant to change benefits (for example, Employee Express). Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We identified seven differences, and HHS auditors identified two differences for a total
of nine differences. We found one difference for Army, four for ODO, one for EPA, and
one for VA. The differences occurred because the applicable SF-2809s or SF-2810s were
incomplete or missing.



                                                                                Enclosure
                                                                              Page 4 of 13
Procedure 2.g.
For Life Insurance for each individual selected in step 2.a., confirm that Basic Life
Insurance was elected by the employee by inspecting the Life Insurance Election Form
(SF-2817) documented in the employee’s OPF. Report any differences resulting from
this step and obtain management’s explanation for the differences.

Results
We identified one difference for ODO, and DOE auditors identified one difference for a
total of two differences. For the ODO, the unsigned SF-2817 showed that the employee
waived Basic Life Insurance. However, the SF-50 and DFAS indicated the employee
was receiving Basic Life Insurance. Therefore, the difference occurred because the
correct SF-2817 was missing. For DOE, the difference occurred because the SF-2817
was incomplete.

Procedure 2.h.
For each individual selected in step 2.a., calculate the withholding and contribution
amounts for Basic Life Insurance using the following:

       •   For employee withholdings: Round the employee’s annual base salary up to
           the nearest thousand dollars and add $2,000. Divide this total by $1,000 and
           multiply by the rate required by law.
       •   For agency contributions: Divide the employee withholdings calculated above
           by two.

Compare the calculated employee withholdings and agency contributions to the actual
amounts withheld and contributed for Basic Life Insurance. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We identified three differences, and HHS auditors identified one difference for a total of
four differences. We found two differences for Army and one for ODO. These
differences occurred because the applicable SF-50 or SF-2817 was missing or Human
Resources and DFAS did not provide an adequate explanation.

Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional
coverage elected as documented on the SF-2817 in the employee’s OPF to the optional
coverage documented in the payroll system. Report any differences resulting from this
step and obtain management’s explanation for the differences.

Results
We identified ten differences, DOE auditors identified two differences, and HHS auditors
identified eight differences for a total of 20 differences. We identified one difference for
Air Force, six for ODO, one for EPA, and two for VA. The differences occurred because
the applicable SF-2817s were incomplete, processed late, or missing.
                                                                                 Enclosure
                                                                               Page 5 of 13
Procedure 2.j.
For each individual selected in step 2.a., calculate the withholding amounts for optional
life insurance using the following:

       •   For Option A: Locate the employee’s age group using the age groups provided
           for Option A in the FEGLI Program Booklet. The withholding amount to be
           used is the rate listed in the FEGLI Program Booklet for that age group.
           Compare the calculated amount to the amount withheld for Option A Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

       •   For Option B: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option B. Locate the employee’s age group using the age groups provided
           for Option B in the FEGLI Program Booklet. Round the employee’s annual
           rate of basic pay up to the next $1,000, divide by $1,000, and multiply by the
           rate for the respective age group. Multiply this amount by the number of
           multiples chosen for Option B Life Insurance. Compare the calculated
           amount to the amount withheld for Option B Life Insurance. Report any
           differences resulting from this step and obtain management’s explanation for
           the differences.

       •   For Option C: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option C. Locate the employee’s age group using the age groups provided
           for Option C in the FEGLI Program Booklet. Multiply the rate for the age
           group by the number of multiples chosen for Option C Life Insurance.
           Compare the calculated amount to the amount withheld for Option C Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

Results
We identified 12 differences, DOE auditors identified two differences, and HHS auditors
identified nine differences for a total of 23 differences. We identified two differences for
Army, one for Air Force, six for ODO, one for EPA, and two for VA. The differences
occurred because the applicable SF-2817s were incomplete, processed late, or missing; or
the SF-50 was missing; or Human Resources and DFAS management did not provide an
adequate explanation.

Procedure 3.
Randomly select a total of 10 employees who have no Health Benefits withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 3.a.
Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hardcopy format, from the selected employee’s OPF or, if applicable, obtain
                                                                                 Enclosure
                                                                               Page 6 of 13
a report (via the agency personnel office ) from the agency’s automated system that
allows participants to change benefits, (for example, Employee Express), for any Health
Benefit transactions in that system for the individuals selected. Hard copies can be
originals or certified copies. Inspect the documentation (that is, SF-2809 or the agency’s
system-generated report) to identify whether health benefits coverage was not elected.
This can be identified in the following ways:

           •   absence of an SF-2809 in the OPF and no election of coverage made
               through the agency’s automated system that allows participants to change
               benefits (for example, Employee Express); or
           •   an SF-2809 in the OPF with Section E checked (indicating cancellation
               of coverage) and no later election of coverage through the agency’s
               automated system that allows participants to change benefits (for
               example, Employee Express); or
           •   cancellation of coverage through the agency’s automated system that
               allows participants to change benefits (for example, Employee Express)
               and no later election of coverage with an SF-2809.

Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We identified four differences, two for Navy and two for VA. The differences occurred
because the applicable SF-2809s or the SF-2810s were incomplete or missing.

Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in
electronic or hardcopy format, from the selected employee’s OPF. Hardcopies can be
originals or certified copies. Inspect the SF-2817 to identify that the employee waived or
cancelled Basic Life Insurance coverage.

Procedure 4.b.
Compare the result in step 4.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We identified three differences, DOE auditors identified one difference, and HHS
auditors identified two differences for a total of six differences. We identified two for

                                                                                  Enclosure
                                                                                Page 7 of 13
ODO and one for VA. The differences occurred because the signed SF-2817s were
incomplete or missing.

Procedure 5.
Calculate the headcount reflected on the September 2011 and March 2012 Semiannual
Headcount Report selected, as follows.

Procedure 5.a.
Obtain existing payroll information (from step 1.a.) supporting each Supplemental
Semiannual Headcount report. If existing payroll data is not available, obtain a payroll
system query that summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report, as follows:

       •   Benefit Category (see Semiannual Headcount Report).
       •   Dollar Amount of withholdings and contributions.
       •   Number Enrolled (deductions made/no deductions).
       •   Central Personnel Data File Code.
       •   Aggregate Base Salary.

Procedure 5.b.
Recalculate the Headcount reflected on each Semiannual Headcount Report. If an
electronic file is not available, a suggested method of recalculating the Headcount is as
follows: (1) estimate the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in the payroll register,
and (3) multiply the number of employees per page by the number of pages, or count
(using a computer audit routine) the number of employees on the payroll data file for the
period.

Procedure 5.c.
Compare the payroll information obtained in step 5.a. and the calculated headcount from
step 5.b. to the information shown on each respective Semiannual Headcount Report.

Procedure 5.d.
Report any differences (for example, gross rather than net) greater than 2 percent between
the headcount reporting on each respective agency Semiannual Headcount Report and
payroll information from step 5.a. and the calculated Headcount from step 5.b. Obtain
from management a management official name, telephone number, an e-mail address,
and an explanation for the differences.

Results
There were no differences greater than 2 percent for this comparison.




                                                                                Enclosure
                                                                              Page 8 of 13
Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and Life
Insurance as follows:

Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected in
step 1.a., as follows:

Procedure 6.a.i.
Multiply the Civil Service Retirement System and FERS payroll base by the withholding
and employer contribution rates required by law.

Procedure 6.a.ii.
Compare the calculated totals from step 6.a.i. to the related amounts shown on the RITS
submissions. Report any differences (for example, gross rather than net) between the
calculated amounts and the amounts reported on the RITS submissions greater than
5 percent of the amounts on the RITS submission, and obtain management’s explanation
for the differences.

Results
There was one difference greater than 5 percent for this comparison. The EPA payroll
office Civil Service Retirement System agency contribution calculation for the pay period
ending February 25, 2012, had a $9,002.21 difference over 5 percent. This difference
occurred because two employees were incorrectly coded for FERS instead of Civil
Service Retirement System.

Procedure 6.b.
Calculate employee withholdings and employer contributions for Health Benefits for the
three pay periods selected in step 1.a., as follows:

Procedure 6.b.i.
Multiply the number of employees enrolled in each Health Benefits plan and plan option
by the employee withholdings and employer contributions for the plan and option.

Procedure 6.b.ii.
Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
and contribution amounts shown on the RITS submissions. Report any differences (for
example, gross rather than net) between the calculated amounts and the amounts reported
on the RITS submissions greater than 5 percent of the amounts on the RITS submission,
and obtain management’s explanation for the differences.

Results
There were no differences greater than 5 percent for this comparison.


                                                                               Enclosure
                                                                             Page 9 of 13
Procedure 6.c.
Calculate the Basic Life Insurance employee withholdings and employer contributions
for the three pay periods selected in step 1.a., as follows:

Procedure 6.c.i.
Obtain a payroll system query from Agency Payroll Provider personnel to obtain the total
number of employees with Basic Life Insurance coverage and the aggregate annual basic
pay for all employees with Basic Life Insurance.

Procedure 6.c.ii.
For employee withholdings: Add the product of 2,500 times the number of employees
with Basic Life Insurance coverage from step 6.c.i. above to the aggregate annual basic
pay for all employees with Basic Life Insurance from step 6.c.i. above to calculate the
estimated total Basic Life Insurance coverage. Divide this calculated total by 1,000 and
multiply by the withholding rate required by law. The Life Insurance withholding rates
can be found in the FEGLI Program Booklet on OPM’s website.

Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage
reported on the RITS submission. Report any difference (for example, gross rather than
net) between the estimate and the amount of withholdings reported on the RITS
submission greater than 5 percent of the amounts on the RITS submission, and obtain
management’s explanation for the difference.

Results
There were no differences greater than 5 percent for this comparison.

Procedure 6.c.iv.
For agency contributions: Divide the results of step 6.c.ii. by two—this approximates
agency contributions, which are one-half of employee withholdings. Compare this result
to the amount reported on the RITS submission. Report any differences (for example,
gross rather than net) between the estimated amount and the actual amount reported on
the RITS submission greater than 5 percent of the amounts on the RITS submission, and
obtain management’s explanation for the differences.

Results
There were no differences greater than 5 percent for this comparison.

Procedure 6.d.
Calculate the Option A, Option B and Option C Life Insurance coverage withholdings for
the three pay periods selected by using detail payroll reports used to reconcile the RITS
reports in Step 1. In addition to the information used for step 1, the reports should
include the employee's date of birth, annual rate of basic pay, and number of multiples
selected for Option B and C. Note: While similar to step 2.j., the calculation at this step

                                                                                Enclosure
                                                                             Page 10 of 13
is for the entire amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.

Procedure 6.d.i.
Multiply the number of employees in each age group by the appropriate rate for Option A
in accordance with the rates for age groups provided in the FEGLI Program Booklet.

Procedure 6.d.ii.
Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS
submissions. Report any differences (for example, gross rather than net) greater than
2 percent of the amounts on the RITS submission, and obtain management’s explanation
for the differences.

Results
There was one difference greater than the 2 percent for the Option A comparison. The
Shipyard DoD payroll office had a $626.76 difference over 2 percent for the pay period
ending February 25, 2012, for two Navy personnel. DFAS stated that the difference for
this payroll office was primarily attributable to retroactive pay adjustments. Navy
Human Resources personnel stated that retroactive adjustments were made to correct
Option A coverage for prior pay periods.

Procedure 6.d.iii.
Segregate the reports for Option B and Option C insurance into the age groups shown in
the FEGLI Program Booklet. For Option B, round the employee's annual rate of basic
pay up to the next 1000, divide by 1000, multiply by the rate for the age group, multiply
this by the number of multiples:

(Annual rate of basic pay (rounded up) /1000*rate*multiples).

For Option C, multiply the rate for the age group by the number of multiples chosen for
each employee.

Procedure 6.d.iv.
Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
respectively, reported on the RITS submissions. Report any differences (for example,
gross rather than net) greater than 2 percent of the amounts on the RITS submission for
Option B or Option C, and obtain management’s explanation for the differences.

Results
There was one difference greater than 2 percent for the Option B comparison. The
Shipyard DoD payroll office had a $16,339.04 difference over 2 percent for the Option B
comparison for the pay period ending February 25, 2012. DFAS management provided
an explanation for this difference. However, their pay amounts did not agree with our
payroll information. Therefore, this issue was not resolved.


                                                                               Enclosure
                                                                            Page 11 of 13
There were differences greater than 2 percent for the Option C comparison. For the pay
period ending October 22, 2011, the Air Force payroll office had a difference of
$3,729.71 over 2 percent. For pay period ending February 25, 2012, Shipyard DoD
showed a difference of $877.69 over 2 percent. DFAS personnel explained that these
differences were primarily attributable to retroactive FEGLI deductions.

Procedure 7.
Compare the list of field offices/duty stations to the list of local CFC campaigns obtained
from OPM’s OCFCO.

Procedure 7.a.
Determine in which campaign each field office/duty station is located. (Note: It is
possible for a field office/duty station to be in a location with no local CFC campaign.)

Results
We determined the campaign for each field office/duty station.

Procedure 8.
Compare the list of accounting codes to the identified campaigns for each field
office/duty station.

Procedure 8.a.
Determine the accounting code for each field office/duty station.

Procedure 8.b.
Determine if the name of the campaign, the PCFO and address of the PCFO in the
Agency Payroll Provider system agree to the information for that field office/duty station
on the list of local CFC campaigns obtained from OPM’s OCFCO.

Results
We determined that the name of the campaign, the PCFO, and the PCFO address in the
Defense Civilian Pay System agreed with the OPM list of CFC campaign codes, except
for 5 out of 198 Defense Civilian Pay System codes. DFAS personnel stated that they
would update the codes in the Defense Civilian Pay System.

Procedure 9.
Sort the report of all employees with CFC deductions by Official Duty Station.

Procedure 9.a.
Compare the Official Duty Stations to the campaigns identified for those locations.

Procedure 9.b.
Compare the accounting codes for each employee with CFC deductions to the accounting
code identified for that employee’s Official Duty Station.
                                                                                 Enclosure
                                                                              Page 12 of 13
       •   Determine if this agrees to the accounting code identified for that field
           office/duty station.

Results
We determined that 1,498 out of 170,827 employees with CFC deductions for the pay
period ending February 25, 2012, had geographic location codes that differed from the
geographic codes corresponding to their duty stations. We identified differences for the
Army, Air Force, ODO, Overseas Army, Overseas DoD, EPA, and VA payroll offices.
However, we did not find differences in our comparison of CFC campaign codes.
Therefore, we do not have any reportable differences for this comparison.

Procedure 10.
From the list of accounting codes that do not agree with the field office/duty station,
select a judgmental sample of two pledges per federal agency and request the hardcopy
pledge form from the agency.

Determine if the pledge form used was for the correct campaign based on the official
duty station.

Results
There were no differences for this comparison. Consistent with our results from
Procedure 9, we found the CFC campaign codes agreed with the selected pledge forms.




                                                                                 Enclosure
                                                                              Page 13 of 13
